B t & D A li GUY A. FORTNEY Law Offices of

ie} ngelis gfortney@brewsterlaw.com Brewster & De Angelis

Cee Uey G 5' Phone 918-742-2021 2617 East 21st Street
ADVOCATES Facsimile 918-742-2197 Tulsa, OK 74114

 

 

 

May 18, 2021

Scott S. Harris
Chief Deputy Court Clerk
Supreme Court of the United States

RE: Faye Strain v. Vic Regalado, et. al.
Case No.: 20-1562

Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4, Respondent Vic Regalado, respectfully requests an
additional 30 days to file his response to the certiorari petition filed in this case on May 7, 2021.
The current response date is June 10, 2021, and a 30-day extension would make the new
response date July 12, 2021.

This request is not made for the purposes of delay, but its necessary so that we may

carefully prepare and respond to the arguments raised in the petition. Further, due to the press of
other business, including upcoming trials, Respondent will need the additional time.

Sincerely,

Guy A. Fetes /

 

www.brewsterlaw.com

*CLARK O. BREWSTER ¢ JENNIFER L. DE ANGELIS * GUY A. FORTNEY
MONTGOMERY L. LAIR * KATIE A. MCDANIEL * MBILIKE M. MWAFULIRWA © SHEA A. BIELBY

*Licensed in Oklahoma and Texas
